                                                                  OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 3) Version 2.0
               Reporting Entity: Department of Transportation ‐ OIG
             Month Ending Date: 06/30/2009

                                                                 Recovery Act Funds Used on Recovery Act Activity
           Agency / Bureau                  Recovery Act TAFS           Sub‐Account Code    Award Type       US Indicator        State Code       Total Obligations   Total Gross 
                                                                           (OPTIONAL)                                         (ONLY for grants                          Outlays
                                                                                                                              and cooperative 
No.                                                                                                                             agreements)
    Department of Transportation ‐(69‐0131 2009 \ 2013)                                        Other            Y ‐ US                               $120,533         $107,584 
    OIG                           Transportation ‐ OIG ‐ 
  1                               Recovery Act
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                                     Non-Recovery Act Funds Used on Recovery Act Activity
           Agency / Bureau               Non‐Recovery Act TAFS          Sub‐Account Code    Total FY 2009    Total FY 2009     Total FY 2010       Total FY 2010 
                                                                           (OPTIONAL)        Obligations     Gross Outlays      Obligations        Gross Outlays
No.
    Department of Transportation ‐    (69-0130 2009) Transportation -                             $823,752         $763,914
  1 OIG                               OIG
  2
  3
  4
  5
  6
  7
  8
  9
 10
                                              OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 2 of 3) Version 2.0
        Reporting OIG: Department of Transportation ‐ OIG
    Month Ending Date: 06/30/2009

     Recovery Act New Hires                      Flash Reports                           Testimonies:
       Hired (monthly):   2.10              Issued (monthly):       0             Provided (monthly):     0

    Hired (cumulative):    4.15           Issued (cumulative):      0          Provided (cumulative):     3


          Complaints                 Whistleblower Reprisal Allegations                 Investigations        Audits / Inspections / Evaluations / 
                                                                   Monthly Data
             Received:      31                    Received:       0                         Opened:       2                   Initiated:     0
                                                  Accepted:       0                           Active:     8                 In Process:      1
                                                                                    Pending Decision:     2                Completed:        1

                                                                               Closed without Action:     0

                                                                                        Accepted for 
                                                                                                          1
                                                                                        Prosecution:
                                                                                 Prosecution Denied:      0

                                                                              Referred for Alternative 
                                                                                                          0
                                                                                           Resolution:
                                                            Cummulative Data Since 2/17/09

             Received:      64                      Received:       0          Closed without Action:     0                Completed:        3

                                                                                        Accepted for 
                                                    Accepted:       0                                     6
                                                                                        Prosecution:
                                                                                 Prosecution Denied:      0

                                                                              Referred for Alternative 
                                                                                                          1
                                                                                           Resolution:
                                        OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 3) Version 2.0
      Reporting OIG: Department of Transportation ‐ OIG
  Month Ending Date: 06/30/2009

       No.                      OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     On June 4, the Principal Assistant IG for Auditing and Evaluation spoke at the Mid-Atlantic Intergovernmental Audit Forum
        1
                     on issues related to implementing ARRA.
                     On June 11, the DOT OIG participated in a roundtable discussion at the Federal Audit Executive Council Seminar on
        2
                     Oversight Plans for American Recovery and Reinvestment.
        3            On June 22, the DOT OIG issued an ARRA Advisory on sampling of improper payments in major DOT grants programs.
                     In June, DOT OIG investigations provided fraud prevention and awareness briefings to Federal, state, and local
        4            transportation officials in 17 states. Briefings were also provided to 7 Federal prosecutors' districts and 1 Office of
                     Inspector General.
        5
        6
        7
        8
        9
        10

       No.                                    OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for the Future)
                     On July 20, the Assistant Inspector General for Surface and Maritime Program Audits will be speaking at the American
        1            Association of State Highway and Transportation Officials' 2009 Conference - Subcommittee on Internal and External
                     Audits on our oversight of DOT's implementation of ARRA and other audit issues.
                     On July 29, the DOT OIG will participate, along with other Federal IGs, a webinar with the New York State Internal Review
        2            Task Force. The webinar will focus on the role of the Federal OIGs and the Recovery Accountability and Transparency
                     Board, as well as how the OIGs and New York agencies can best coordinate their ARRA activities.
                     Issue "ARRA Advisories" (i.e. Flash Reports) to the Department and Congress when we identify vulnerabilities that could
        3
                     impede DOT’s ability to provide effective oversight to ARRA-funded projects and meet new requirements
        4            Continue to monitor for fraudulent schemes in the contracting process.
        5            Continue fraud prevention and awareness briefings and outreach efforts.
        6
        7
        8
        9
        10
